   Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




Beneficiary Awareness of HCFA Publications
                 in 1997




                      JUNE GIBBS BROWN
                       Inspector General

                        SEPTEMBER 1998
                         OEI-04-97-00033
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                                   HEADQUARTERS

Betty Apt, Project Leader
                               Wynethea Walker, Program Specialist
Jason Stanfield, Contractor
                             Linda Moscoe, Technical Support
Joe Townsel, Program Analyst
                            Barbara Tedesco, Statistician
Paula Bowker, Program Analyst

Greg Jones, Program Analyst

Janet Miller, Program Analyst





        To obtain copies of this report, please call the Atlanta Regional Office at (404) 562-7743.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine Medicare beneficiary awareness of Health Care Financing Administration
publications in 1997.

BACKGROUND

The Health Care Financing Administration (HCFA) publishes various booklets designed to help
Medicare beneficiaries make informed health care decisions. The booklets are available from
several sources, such as Social Security offices and senior citizen organizations. However, the
Department has little information on the extent that beneficiaries know the booklets are available.

As part of our 1997 survey to determine beneficiary satisfaction with Medicare, we asked
beneficiaries about their awareness of the Medicare handbook and seven other HCFA
publications. We reported on the handbook and six of the seven booklets in a 1995 report.

FINDINGS

Most beneficiaries were aware of the Medicare handbook

Eighty-seven percent of beneficiaries surveyed in 1997 said they knew about the Medicare
handbook. This was a statistically significant increase from 1995 when 75 percent said were
familiar with the handbook.

Beneficiary use of the Medicare handbook remains low, but users found it helpful

In 1997, 38 percent of the beneficiaries who were aware of the handbook said they had used it in
the past year. This is about the same as 1995. Of beneficiaries who had used the handbook, 95
percent thought the handbook was helpful.

Few beneficiaries were aware of HCFA's other publications

  !	   Twenty-four percent of the Medicare beneficiaries who responded to our survey were
       aware of HCFA's Guide to Health Insurance for People with Medicare Coverage.

  !	   Fifteen percent of the Medicare beneficiaries who responded to our survey were aware of
       HCFA's booklet on Medicare and Other Health Benefits.

  !	   Nine percent of the Medicare beneficiaries who responded to our survey were aware of
       HCFA's booklet on How to Help Medicare from Being Ripped Off.

  !	   Nine percent of the Medicare beneficiaries who responded to our survey were aware of
       HCFA's booklet on Medicare Hospice Benefits.

                                            )))))))))))
                                                 i
 !	    Seven percent of the Medicare beneficiaries who responded to our survey were aware of
       HCFA's booklet Guide to Choosing a Nursing Home.

 !	    Six percent of the Medicare beneficiaries who responded to our survey were aware of
       HCFA's booklet on Medicare Managed Care Plans.

 !	    Six percent of the Medicare beneficiaries who responded to our survey were aware of
       HCFA's booklet on Medicare Coverage for Second Surgical Opinions.

Most beneficiaries did not know how to obtain HCFA publications

Seventy percent of the beneficiaries said they did not know how to obtain HCFA’s free
publications.

CONCLUSION

HCFA publications provide important information that Medicare beneficiaries and their families
may use to make informed health care decisions. However, beneficiaries can benefit from HCFA's
guidance only if they know the information is available. Since awareness of publications other
than the handbook have not increased, it is obvious that methods previously used are not working.

We are aware that as a result of the Balanced Budget Act of 1997, HCFA will likely update
several of their publications, such as the handbook and managed care booklet. This presents
HCFA a good opportunity to intensify efforts to make beneficiaries aware of the availability of all
its publications.




                                            )))))))))))
                                                 ii
                             TABLE OF CONTENTS



                                                                                                                             PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Most Beneficiaries Aware of Handbook . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Use of Handbook Remains Low, But Users Found It Useful . . . . . . . . . . . . . . . . . . . . . 4


          Few Aware of Other Publications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Most Did Not Know How to Obtain Publications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDICES


          Responses to 1997 Medicare Beneficiary Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


          Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                                 INTRODUCTION

PURPOSE

To determine Medicare beneficiary awareness of Health Care Financing Administration
publications in 1997.

BACKGROUND

Medicare Program

Medicare is a Federal health insurance program for individuals age 65 and older and for certain
categories of disabled people. Authorized in 1965 by title XVIII of the Social Security Act,
Medicare paid benefits in 1997 totaling over $211 billion to approximately 38 million
beneficiaries.1 The Health Care Financing Administration (HCFA) within the Department of
Health and Human Services has responsibility for the Medicare program.

HCFA Publications

HCFA publishes a Medicare handbook for beneficiaries that explains how the Medicare program
works and what the benefits are. HCFA publishes a new handbook every year, but generally only
mails it to new enrollees. In 1996, the year preceding our survey, HCFA mailed a new handbook
to all beneficiaries. HCFA officials now are considering the feasibility of mailing another new
handbook to all beneficiaries.

HCFA also publishes various booklets designed to help beneficiaries make informed health care
decisions. The booklets provide (1) guidance on Medicare coverage for specific services, such as
hospice and second surgical opinions, (2) advice on criteria beneficiaries should consider in
selecting services, such as nursing home care and supplemental health insurance, and (3) tips that
should alert beneficiaries to fraudulent activities.

The handbook and other booklets are available upon request from several sources, such as Social
Security offices, insurance offices that process Medicare claims (called carriers), and senior citizen
organizations. However, the Department has little information on the extent that beneficiaries
know the handbook and booklets are available.




__________________
  1
   Health Care Financing Administration, United States Department of Health and Human Services, HCFA Statistics,
October 1997.




                                                   )))))))))))
                                                        1
Previous Surveys

In 1993, the Office of Inspector General conducted a survey of Medicare beneficiaries to
determine their awareness of the Medicare handbook and two booklets published by HCFA.2 In
1994 and 1995, we conducted a similar survey of Medicare beneficiaries, and asked about their
awareness of the handbook and seven booklets.3

In all three surveys, we found that while most beneficiaries were aware of the handbook, few
knew about the booklets.

METHODS

In July 1997, we mailed a questionnaire to 1269 randomly selected Medicare beneficiaries for
whom Part B claims had been filed in Calendar Year 1996. We used standard equations for
estimating sample size with a binary response variable.

Beneficiary participation in the survey was voluntary. A total of 977 beneficiaries returned
completed questionnaires, for a response rate of 77 percent. Percentages in the report are based
on the number of people answering each question. Based on our response rate, estimates are
within 3.5 percent of the true value at the 95 percent confidence level. Some individual findings
may be less precise, depending on the number of beneficiaries who responded to specific
questions. Appendix A shows beneficiary responses to the questionnaire. Appendix B shows
confidence intervals for the findings.

As part of our 1997 survey to determine beneficiary satisfaction with Medicare,4 we asked
beneficiaries about their awareness of eight HCFA publications. The eight publications included
the Medicare Handbook, and seven other HCFA publications. The eight publications are
described below.

  !     HCFA's Medicare Handbook explains the Medicare program and benefits.

  !	    HCFA's Guide to Health Insurance for People with Medicare Coverage booklet provides
        information on (1) Medicare coverage, (2) types of Medigap policies, and (3) tips for
        purchasing Medigap insurance.



__________________
  2
  Office of Inspector General, United States Department of Health and Human Services. Use of Nursing Home and
Medigap Guides. OEI-04-92-00481, May 1994.

  3
  Office of Inspector General, United States Department of Health and Human Services. Beneficiary Awareness of
HCFA Publications. OEI-04-94-00141, June 1995.

  4
   Office of Inspector General, United States Department of Health and Human Services. Medicare Beneficiary
Satisfaction: 1997. OEI-04-97-00030.


                                                   )))))))))))
                                                        2
  !	   HCFA's Medicare and Other Health Benefits booklet explains how Medicare coordinates
       with other insurance that beneficiaries may have, such as Medigap, employer health plans,
       and Workman's Compensation.

  !	   HCFA's How to Help Stop Medicare from Being Ripped Off booklet describes what
       beneficiaries can do to prevent Medicare fraud.

  !	   HCFA's Medicare Hospice Benefits booklet explains (1) hospice services, (2) eligibility
       requirements, and (3) Medicare payments for hospice services.

  !	   HCFA's Medicare Coverage for Second Surgical Opinions booklet provides information
       on (1) when beneficiaries should get second surgical opinions, (2) how to find physicians
       to give second surgical opinions, and (3) Medicare payments for second surgical opinions.

  !	   HCFA's Guide to Choosing a Nursing Home booklet contains information on (1) factors
       to consider in selecting a nursing home, and (2) Medicare and Medicaid coverage of
       nursing home care.

  !	   HCFA's Medicare Managed Care Plans booklet contains information on managed health
       care plans (health maintenance organizations and competitive medical plans) that contract
       with HCFA to provide health care for Medicare beneficiaries.

Comparison to Previous Surveys

During our 1993, 1994, 1995, and 1997 surveys, we asked Medicare beneficiaries similar
questions about the Medicare Handbook. We compare their responses in this report.

We asked Medicare beneficiaries similar questions about two of HCFA's publications in our 1993,
1994, 1995, and 1997 surveys. In 1994, 1995, and 1997 we asked similar questions about six
publications. For those publications on which we asked similar questions in more than one survey
year, we calculated the percentage of responses so that they were comparable from year to year.

We determined significant differences in responses to the two most recent surveys through use of
a t-test. If there was a statistical difference between the responses to the surveys, we stated the
percent increased or decreased in the report. If there was not a statistical difference, we stated
that the percent stayed the same.

                                           ---------------

We conducted this inspection in accordance with the Quality Standards for Inspections issued by
the President's Council on Integrity and Efficiency.




                                            )))))))))))
                                                 3
                                          FINDINGS

MOST BENEFICIARIES WERE AWARE OF THE MEDICARE HANDBOOK

Eight-seven percent of the beneficiaries surveyed said they knew about the Medicare Handbook.
Figure 1 illustrates that the percent of beneficiaries who knew of the handbook increased
significantly from 1995 to 1997. This increase may be due to HCFA having mailed a new
handbook to each beneficiary in 1996.


                               FIGURE 1

            BENEFICIARY AWARENESS OF THE MEDICARE HANDBOOK




                     1997                                                    87



                     1995                                      75
                  YEAR




                     1994                                          76



                     1993                                          76


                            0   10   20   30   40   50   60   70        80        90   100
                                                PERCENT




BENEFICIARY USE OF THE MEDICARE HANDBOOK REMAINS LOW, BUT USERS
FOUND IT HELPFUL

Figure 2 shows that slightly over a third of beneficiaries said they had used the handbook in the
last year. This number is about the same as in 1995.




                                                )))))))))))
                                                     4
                                  FIGURE 2

                 BENEFICIARY USE OF THE MEDICARE HANDBOOK





                       1997                     37



                       1995                     38
                    YEAR




                       1994                                         58



                       1993                                     55


                              10      20   30        40        50        60        70    80    90    100
                                                           PERCENT


At the same time, in 1993, 1994, 1995, and 1997, over half of the beneficiaries surveyed said they
would refer to the Medicare handbook to get information concerning what Medicare pays for. Of
the beneficiaries who had used the handbook, 95 percent thought it was helpful. Figure 3 shows
that beneficiaries responded virtually the same in our 1993, 1994, and 1995 surveys.

                             FIGURE 3

   BENEFICIARIES WHO, HAVING USED THE HANDBOOK, FOUND IT USEFUL





                           1997                                                                 95



                           1995                                                                 94
                     YEAR




                           1994                                                                93



                           1993                                                                93


                                  0   10   20    30       40        50        60    70    80   90    100
                                                           PERCENT




                                                      )))))))))))
                                                           5
FEW BENEFICIARIES WERE AWARE OF HCFA'S OTHER PUBLICATIONS

Table 1 illustrates that only 6 to 24 percent of the 977 beneficiaries responding to our survey in
1997 were aware of HCFA's other publications.

                                     TABLE 1

                          AWARENESS OF HCFA PUBLICATIONS


                                                                      BENEFICIARIES
                     PUBLICATION                                         AWARE

                                                               1993     1994     1995     1997

 Guide to Health Insurance for People with Medicare            13%      24%      26%      24%
 Coverage
 Medicare and Other Health Benefits                              *      14%      18%      15%
 How to Help Medicare from Being Ripped Off                      *        *       9%       9%
 Medicare Hospice Benefits                                       *       9%       8%       9%
 Guide to Choosing a Nursing Home                               9%       8%       7%       7%
 Medicare Managed Care Plans                                     *        *        *       6%
 Medicare Coverage for Second Surgical Opinions                  *       9%       7%       6%

 * If no percentages are shown, we did not ask about that publication in that
  particular year.



As in previous years, the most familiar publication to beneficiaries relates to insurance policies
that supplement Medicare. It is important to realize that awareness of other publications may be
dependent on a beneficiary’s need. For example, a beneficiary who has never had to choose a
nursing home may not be aware of the publication concerning such a matter.


MOST BENEFICIARIES DID NOT KNOW HOW TO OBTAIN HCFA PUBLICATIONS

Seventy percent of the beneficiaries surveyed said they did not know how to obtain HCFA's free
publications.




                                            )))))))))))
                                                 6
                                CONCLUSION

HCFA publications provide important information that Medicare beneficiaries and their families
may use to make informed health care decisions. However, beneficiaries can benefit from HCFA's
guidance only if they know the information is available. Since awareness of publications other
than the handbook have not increased, it is obvious that methods previously used are not working.

We are aware that as a result of the Balanced Budget Act of 1997, HCFA will likely update
several of their publications, such as the handbook and managed care booklet. This presents
HCFA a good opportunity to intensify efforts to make beneficiaries aware of the availability of all
its publications.




                                            )))))))))))
                                                 7
                               APPENDIX A


          RESPONSES TO 1997 SURVEY OF MEDICARE BENEFICIARIES
                              (977 Respondents)


___________________________________________________________________________
Question                            Responses
___________________________________________________________________________

1.    Where would you go to get information about what Medicare pays for?

      The following are some places people might go to get answers if they have questions
      about what Medicare pays for. Check all the places you would go to find out what
      Medicare pays for.

      (N = 952 - Number Responding to Question)


     Your doctor's office                  644
     Friend or relative                     95
     AARP or other
      membership organization              133
     Insurance company that
      processes your Medicare claims       364
     Medigap insurance company             221
     Social Security office                268
     Local senior citizen's group           73
     The Health Care Financing
      Administration (HCFA)                 22
     Insurance salesperson                  18
     Medicare Handbook                     523
     Medicare Peer Review
      Organization                         25
     State's Information, Counseling,
      and Assistance office                30
     Other                                 27
     Not Answering: 25




                                         )))))))))))
                                            A-1
Question                            Responses
___________________________________________________________________________

2.	   Listed below are Medicare booklets that you can obtain free of charge. Please
      check the booklets you were aware of before today.

      (N = 750 - Number Who Checked One or More Publications)

      Guide to Health Insurance
      for People with Medicare             182

      Guide to Choosing a
      Nursing Home                         54

      Medicare Coverage for
      Second Surgical Opinion              46

      Medicare Hospice Benefits            68

      Medicare Managed Care
      Plans                                43

      Medicare and Other Health
      Benefits                             114

      How to Help Medicare from
      Being Ripped Off                     64

      Medicare Handbook                    650

      Not Checking Any of the Above: 227


___________________________________________________________________________

3.    Do you know how to obtain these free publications from Medicare?

      Yes                                  278
      No                                   660
      Not Answering: 39




                                       )))))))))))
                                          A-2
Question                            Responses
___________________________________________________________________________

4.    How many times in the past year have you used your Medicare Handbook?
      (Check one answer.)

      1 to 3 times                     281
      More than 3 times                 51
      I have not used the
       Medicare Handbook in
       the past year                   403
      I do not know what the
       Medicare Handbook is             51
      I do not recall receiving a
       Medicare Handbook               118
      Not Answering: 73


___________________________________________________________________________

5.	   Do you think the Medicare Handbook is:
      (Check one answer.)

      (N = 332 - Number Who Had Used Handbook)

      Very Helpful                     137
      Generally Helpful                171
      Generally Not Helpful             13
      Not Helpful                        3
      Not Answering: 8




                                     )))))))))))
                                        A-3
                               APPENDIX B


                               CONFIDENCE INTERVALS




                                             Estimate   Boundaries for the 95%
              Description
                                                         Confidence Intervals
Beneficiaries who knew about
Medicare handbook                              87%             +/- 2.4%


Beneficiaries who had used
Medicare handbook                             37%              +/- 3.1%


Beneficiaries who would refer to
handbook for information                       55%            +/- 3.2 %


Beneficiaries who had used Medicare
handbook and found it useful                   95%             +/- 2.4%


Beneficiaries who did not know how to
obtain free publications                       70%             +/- 2.9%




                                        )))))))))))
                                           B - 1

                                              Estimate   Boundaries for the 95%
               Description
                                                          Confidence Intervals
Beneficiaries aware of other publications:

       Guide to Health Insurance for
       People with Medicare                     24%             +/- 3.1%

       Medicare and Other Health
       Benefits                                 15%             +/- 2.6%

       How to Help Medicare From
       Being Ripped Off                          9%             +/- 2.0%

       Medicare Hospice Benefits                 9%            +/- 2. 0%

       Guide to Choosing a Nursing
       Home                                      7%             +/- 1.8%

       Medicare Managed Care Plans               6%             +/- 1.7%

       Medicare Coverage for Second
       Surgical Opinions                         6%             +/- 1.7%




                                         )))))))))))
                                            B - 2

